                Department of the Interior
                Office of Inspector General




             Audit Report



                U.S. Fish and Wildlife Service
        Wildlife and Sport Fish Restoration Program
         Grants Awarded to the State of Minnesota,
             Department of Natural Resources,
         From July 1, 2005, Through June 30, 2007




Report No.
R-GR-FWS-0004-2009                 September 2009
                United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                            12030 Sunrise Valley Drive, Suite 230
                                    Reston, VA 20191

                                                                             September 21, 2009

                                      AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Suzanna I. Park
           Director of External Audits

Subject:   Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
           Grants Awarded to the State of Minnesota, Department of Natural Resources, From
           July 1, 2005, Through June 30, 2007 (No. R-GR-FWS-0004-2009)

        This report presents the results of our audit of costs claimed by the State of Minnesota
(State), Department of Natural Resources (Department), under grants awarded by the U.S. Fish
and Wildlife Service (FWS). FWS provided the grants to the State under the Wildlife and Sport
Fish Restoration Program (the Program). The audit included claims totaling approximately $72
million on 45 grants that were open during State fiscal years (SFYs) ended June 30 of 2006 and
2007 (see Appendix 1). The audit also covered Department compliance with applicable laws,
regulations, and FWS guidelines, including those related to the collection and use of hunting and
fishing license revenues and the reporting of program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. However, we questioned costs totaling $20,389 and found that the
Department’s controls over real property and equipment management were inadequate. We also
identified findings from the Minnesota Office of the Legislative Auditor (OLA) Financial Audit
Report on the Game and Fish Fund covering the period from July 1, 2005 through April 30,
2008. The OLA reported that the Department had improperly allocated central support services
costs and claimed unsupported payroll costs.

         In addition, the OLA issued a special report in August 2008 titled “Department of
Natural Resources and the 2007 North American Wildlife Enforcement Officers Association
Conference.” According to that report, the Department incurred approximately $300,000 in
conference expenses unrelated to its statutory responsibilities. Although the conference took
place outside the scope of our audit period, we noted that the inappropriate expenses were paid
with license revenues, which under the Program, can be used only for the administration of the
Department. We therefore suggest that FWS monitor this issue.
        We provided a draft report to FWS for a response. We summarized Department and
FWS Region 3 responses after each recommendation, as well as our comments on the responses.
We list the status of each recommendation in Appendix 3.

        Please respond in writing to the findings and recommendations included in this report by
December 21, 2009. Your response should include information on actions taken or planned,
targeted completion dates, and titles of officials responsible for implementation.

       If you have any questions regarding this report, please contact the audit team leader,
Mr. Jeffrey P. Wilson, or me at 703–487–5345.

cc:   Regional Director, Region 3, U.S. Fish and Wildlife Service




                                                2
                                               Introduction
Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 established the Wildlife and Sport Fish Restoration Program. Under the Program,
FWS provides grants to States to restore, conserve, manage, and enhance their sport fish and
wildlife resources. The Acts and federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs incurred under the
grants. The Acts also require that hunting and fishing license revenues be used only for the
administration of the State’s fish and game agency. Finally, federal regulations and FWS
guidance require States to account for any income they earn using grant funds.

Objectives
Our audit objectives were to determine if the Department:

      •    claimed the costs incurred under the Program grants in accordance with the Acts and
           related regulations, FWS guidelines, and the grant agreements;

      •    used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

      •    reported and used program income in accordance with federal regulations.

Scope

Audit work included claims totaling approximately $72 million on the 45 grants that were open
during SFYs 2006 and 2007 (see Appendix 1). We report only on those conditions that existed
during this audit period. We performed our audit at Department headquarters in St. Paul, MN,
and visited one regional office, three wildlife management areas, one wildlife work area office,
three hatcheries, three area fisheries offices, and two water access sites (see Appendix 2). We
performed this audit to supplement, not replace, the audits required by the Single Audit Act
Amendments of 1996 and by Office of Management and Budget Circular A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures
as necessary under the circumstances. We believe that the evidence obtained from our tests and
1
    16 U.S.C. §§ 669 and 777, as amended, respectively.

                                                          3
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Department;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

   •   interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Department used hunting and fishing license revenues solely for
       administration of the Department; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to
the total population of recorded transactions or evaluate the economy, efficiency, or effectiveness
of the Department’s operations.

Prior Audit Coverage
On February 1, 2007, we issued “Audit Report on the U.S. Fish and Wildlife Service Federal
Assistance Grants Awarded to the State of Minnesota, Department of Natural Resources,
Division of Fish and Wildlife, From July 1, 2002, Through June 30, 2004” (No. R-GR-FWS-
0018-2005). We followed up on all recommendations in the report and found that the
Department of the Interior, Office of the Assistant Secretary for Policy, Management and Budget
considered them to be resolved and implemented.

We reviewed Minnesota’s Comprehensive Annual Financial Reports and Single Audit Reports
for SFYs 2006 and 2007. The Department’s Wildlife and Sport Fish Restoration Program was
not selected for compliance testing in either of the Single Audits. Furthermore, none of these
reports contained any findings that would directly impact the Department’s Wildlife and Sport
Fish Restoration Program grants or programs under the grants.

We also reviewed the Minnesota OLA Financial Audit Report on the Minnesota Department of
Natural Resources Game and Fish Fund covering the period July 1, 2005, through April 30,

                                                4
2008. The report contained several findings that directly impacted our review. Specifically, the
OLA report identified the following findings: (1) improper allocation of central support service
costs; (2) unsupported and improper payroll allocation; and (3) inadequate equipment
management related to lack of performing required annual physical inventories. These issues are
addressed in this report.

Lastly, we considered OLA’s Special Review of the Department’s 2007 Wildlife Enforcement
Conference. The report contained a finding on the inappropriate use of license revenues in the
planning and implementation of the conference. We determined that this finding impacted our
review and included it in this report.




                                               5
                                    Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we identified several
conditions that resulted in the findings listed below, including questioned costs totaling $20,389.
We discuss the findings in more detail in the Findings and Recommendations section.

       Questioned Costs. We questioned costs totaling $20,389 from unsupported and
       unallowable grant expenditures.

       Improper Allocation of Central Support Service Costs. The Department could not
       demonstrate whether it used dedicated funds appropriately due to inappropriate and
       inconsistent allocation methods.

       Unsupported and Improper Payroll Allocation. The Department’s Enforcement
       Division could not support its allocation of payroll costs to the Game and Fish Fund for
       SFYs 2006 and 2007.

       Unreconciled Real Property Records. The Department’s database on total acreage
       acquired with Program funds conflicted with the FWS land records because they had not
       reconciled their respective records.

       Inadequate Equipment Management. The Department did not ensure that the Regions
       conducted and completed the required property inventories for SFYs 2006 and 2007.

Findings and Recommendations
A.     Questioned Costs — $20,389

       To be eligible for reimbursement under the Program, grant funds cannot be used for
       prohibited purchases or purposes, and expenditures must be adequately supported. The
       Department charged $27,122 ($20,341 federal share) to the Public Access Development
       Grant (No. FW-4-D-71) without maintaining documentation to support the expenditure.
       In addition, during a fisheries conference, the hotel hosting the event charged the
       Department $64 ($48 federal share) for four hours of court rental unrelated to the grant.

       The Code of Federal Regulations (C.F.R), in 50 C.F.R. § 80.15, specifies that allowable
       costs include only those that are reasonable and necessary to accomplish approved project
       purposes. These regulations also require grantees to maintain support for the application
       of funds in the form of source documents or other records.

       This issue arose because the Department did not have adequate procedures to ensure that
       grant expenditures were allowable and properly supported. As a result, we are
                                                 6
questioning $20,389, the federal share of these costs. In addition, after the end of
fieldwork, a Department official stated that the Department’s accounting system does not
have separate funding codes for each federal agency providing federal grant funds to the
Division of Trails and Waterways. As a result, other federal agencies’ grant-related
expenditures were also included in the Public Access Development Grant.

Because the Department could not provide documentation to support the claimed
amounts, there is no assurance that the Department expended these funds on grant related
activities.

Recommendations

We recommend that FWS:

1. resolve the $20,389 in questioned costs,

2. ensure the Department implements a procedure to maintain supporting documentation
   and to ensure that expenditures are necessary to accomplish approved project
   purposes, and

3. ensure the Department establishes separate funding codes for the Trails and
   Waterways Division to identify grant related expenditures for each federal agency.

Department Response

The Department concurs with the recommendations and is currently taking steps to
resolve and implement them.

FWS Response

FWS Regional officials concurred with the recommendations and stated that they would
work with the Department in developing a corrective action plan to resolve the
recommendations.

OIG Comments

Based on both Department and FWS responses, additional information is needed in the
corrective action plan, including:

   •   the specific action(s) taken or planned to address the recommendations;

   •   targeted completion dates;

   •   titles of officials responsible for implementing the actions taken or planned; and



                                        7
        •   verification that FWS headquarters officials reviewed and approved of actions
            taken or planned by the Department.

B.   Improper Allocation of Central Support Service Costs

     The Minnesota OLA’s Financial Audit Report on the Game and Fish Fund covering the
     period from July 1, 2005, through April 30, 2008, indicated that the Department could not
     provide documentation or a valid methodology to support the allocation of central
     support service costs to that fund. Specifically:

        •   Staff in the Fish and Wildlife and Trails and Waterways Divisions stated that they
            allocated central support service costs based on the proportion of funding received
            for operations. This allocation method was not appropriate because it failed to
            relate the allocated costs to the office or unit that actually used the central support
            service.

        •   The Enforcement Division did not attempt to allocate its central support service
            costs and instead charged these costs to funds and dedicated accounts with
            sufficient resources to cover them.

     We are not making a recommendation as the Department will be responding to the
     recommendations in the OLA report. We therefore suggest FWS monitor these
     recommendations. The report contained the following recommendations:

        •   “The department should establish guidelines for acceptable allocation methods for
            its divisions to use when allocating central support service costs to funding
            sources.”

        •   “The divisions should retain documentation to support their allocations of central
            support services costs.”

        •   “The department should review its division’s past allocations of central services
            costs and, to the extent possible, adjust the allocations to more reasonably
            approximate the actual cost of those services to the dedicated funding sources.”

C.   Unsupported and Improper Payroll Allocation

     The OLA’s Financial Audit Report also noted that the Enforcement Division could not
     support its allocation of approximately $8.5 million and $9.2 million in payroll costs to
     the Game and Fish Fund for SFYs 2006 and 2007, respectively.

     According to Division staff, payroll costs were allocated to the Game and Fish Fund
     based on estimated work plans. However, they could not provide documentation, such as
     a comparison with prior years’ data, to support the percentages used in the allocation.
     Furthermore, the Division did not appropriately allocate 17 of 29 payroll separation
     payments and 30 of 311 retroactive lump sum payments that OLA tested for SFYs 2006

                                              8
     and 2007. These costs, totaling $105,300, were instead paid entirely from the Game and
     Fish Fund.

     We are not making a recommendation as the Department will be responding to the
     recommendations in the OLA report. We therefore suggest FWS monitor these
     recommendations. The report contained the following recommendations:

        •   “The department should review methods used to allocate payroll charges to
            ensure that methods reasonably approximate actual work performed by
            employees.”

        •   “The department should monitor payroll allocations to ensure that payroll charges
            are consistent with allocation methods authorized.”

        •   “The department should review payroll costs charged to the Game and Fish Fund
            and its dedicated accounts to identify other payroll allocation errors.”

        •   “To the extent possible, the department should adjust the accounting records to
            correct the allocation errors noted in this finding and through its review.”

D.   Unreconciled Real Property Records

     The Department and FWS each maintain records on land purchased with Program grant
     funds; however, these two sets of records show significant differences. Specifically,
     FWS records accounted for over 14,000 less acres acquired with Program funds than the
     Department’s database.

     Federal Regulations (43 C.F.R. §§ 12.82(a)(1)(i) and (c)(2)) require States to retain real
     property records. Furthermore, the FWS Director issued a letter in March 2007
     requesting each State to maintain a real property management system that included a
     comprehensive inventory of lands and to ensure that this inventory is accurate and
     complete.

     The Department has not reconciled records in its land database with FWS land records to
     determine their accuracy and completeness. As a result, the Department’s land records
     are not adequate to ensure that lands acquired with grant funds and license revenues are
     used only for their originally intended purposes.

     Recommendation

     We recommend that FWS require the Department to reconcile its real property records
     with FWS.

     Department Response

     The Department concurs with the recommendation.

                                              9
     FWS Response

     FWS Regional officials concurred with the recommendation and stated that they would
     work with the Department in developing a corrective action plan to resolve the
     recommendation.

     OIG Comments

     Based on both Department and FWS responses, additional information is needed in the
     corrective action plan, including:

        •   the specific action(s) taken or planned to address the recommendation;

        •   targeted completion date;

        •   titles of officials responsible for implementing the actions taken or planned; and

        •   verification that FWS headquarters officials reviewed and approved of actions
            taken or planned by the Department.

E.   Inadequate Equipment Management

     Federal regulations require each State to have adequate controls to ensure it maintains
     accountability for its equipment. To test the State’s controls, we reviewed its Fixed Asset
     System and determined that the Department did not conduct an annual physical inventory
     in SFY2006 or complete the SFY2007 inventory, as required.

     The Department Administrative Manual (Policy Number 04:M02, Section II, “Inventory
     and Audits”) requires that the Regions conduct an annual physical inventory and forward
     the certified results to the Central Management Resources Office. In addition, 43 C.F.R.
     § 12.72(d)(1) requires each State to have adequate controls, including current and
     complete property records, to ensure it maintains accountability for its equipment.

     Department officials did not ensure that the Regions completed annual inventories and
     provided the certified results to the Central Management Resources Office. As a result,
     the Department has no assurance that equipment purchased with Program funds and
     license revenues is being used for its original intended purpose, and the equipment is at
     risk of being lost.

     Recommendation

     We recommend that FWS ensure that the Department implements its inventory
     procedures and conduct certified annual physical inventories.




                                             10
Department Response

The Department concurs with the recommendation and is currently taking steps to resolve
and implement the recommendation.

FWS Response

FWS Regional officials concurred with the recommendation and stated that they would
work with the Department in developing a corrective action plan to resolve the
recommendation.

OIG Comments

Based on both Department and FWS responses, additional information is needed in the
corrective action plan, including:

   •   the specific action(s) taken or planned to address the recommendation;

   •   targeted completion date;

   •   titles of officials responsible for implementing the actions taken or planned; and

   •   verification that FWS headquarters officials reviewed and approved of actions
       taken or planned by the Department.




                                        11
                                                         Appendix 1
                                                           Page 1 of 2


           MINNESOTA DEPARTMENT OF NATURAL RESOURCES
             FINANCIAL SUMMARY OF REVIEW COVERAGE
                JULY 1, 2005, THROUGH JUNE 30, 2007

                                              Questioned Costs
   Grant           Grant      Claimed         (Federal Share)
  Number          Amount       Costs                      Cost
                                          Unsupported
                                                        Exceptions
F-2-L-61         $1,500,000    $135,044
F-2-L-62          1,500,000           0
F-26-R-37           957,685     900,430
F-26-R-38         1,130,152   1,073,763
F-26-R-39         1,142,350     151,146
F-29-R(P)-25      8,090,300   8,099,994
F-29-R(P)-26      8,396,900   8,578,301                    $48
F-29-R(P)-27      8,067,698     769,760
F-32-D-20         5,326,800   4,557,497
F-32-D-21         5,859,734   4,900,082
F-37-E-15           512,498     587,880
F-37-E-16           512,498     683,811
F-37-E-17           512,498     264,748
FW-3-L-55         4,858,896   4,858,896
FW-3-L-57         5,870,000   3,922,569
FW-3-L-58         8,122,625     476,570
FW-4-D-69           625,000     315,737
FW-4-D-70           425,000     426,377
FW-4-D-71         1,212,072     256,080     $20,341
FW-11-C(SF)-16       88,582      99,802
FW-11-C(W)-16        59,055      66,535
FW-11-C(W)-17        98,823      20,274
FW-11-C(SF)-17       98,823      20,274
FW-13-T(SF)-15    1,007,500   1,049,759
FW-13-T(W)-15       542,500     565,255




                               12
                                                             Appendix 1
                                                                Page 2 of 2


           MINNESOTA DEPARTMENT OF NATURAL RESOURCES
             FINANCIAL SUMMARY OF REVIEW COVERAGE
                JULY 1, 2005, THROUGH JUNE 30, 2007


                                                  Questioned Costs
   Grant             Grant        Claimed          (Federal Share)
  Number            Amount         Costs                       Cost
                                              Unsupported
                                                             Exceptions
FW-13-T(SF)-16     $2,112,500      $917,113
FW-13-T(W)-16       1,137,500       518,086
W-27-L-117          1,732,455             0
W-27-L-118          1,500,000             0
W-65-D-6            5,000,000     6,674,058
W-65-D-7            6,350,000     5,554,380
W-65-D-8            5,850,000     1,620,843
W-66-M-6            1,220,000     1,690,174
W-66-M-7            1,485,000     1,430,325
W-66-M-8            1,385,000       290,284
W-67-T-8            1,831,904     1,987,404
W-67-T-9            1,652,000     2,067,108
W-68-D-8            1,564,398     1,863,038
W-68-D-9            1,480,000     1,873,670
W-69-S-8              391,400       492,215
W-69-S-9              402,600       525,320
W-70-E-1              462,463       344,117
W-70-E-2              521,646       634,253
W-70-E-3              430,000       563,390
W-70-E-4              442,600       199,722
TOTAL            $103,469,455   $72,026,084      $20,341        $48




                                   13
                                            Appendix 2


MINNESOTA DEPARTMENT OF NATURAL RESOURCES
               SITES VISITED
                Headquarters

                    St. Paul

               Regional Office

               Region 3, St. Paul

                  Hatcheries

             French River Hatchery
              Lanesboro Hatchery
               St. Paul Hatchery

            Area Fisheries Offices

                   Duluth
                Lake Superior
                  Lansboro

           Wildlife Work Area Office

                    Cloquet

              Water Access Sites

                Lake Superior
                Roberds Lake

          Wildlife Management Areas

               Blackhoof River
                  Rutledge
                 Whitewater




                      14
              NOTICE – THIS DRAFT RESTRICTED TO OFFICIAL USE


                                                                          APPENDIX 3


              MINNESOTA DEPARTMENT OF NATURAL RESOURCES
              STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS


  Recommendations                   Status                     Action Required
A.1, A.2, A.3, D, and E   FWS management concurs          Additional information is
                          with the recommendations, but   needed in the corrective action
                          additional information is       plan, including the actions
                          needed as outlined in the       taken or planned to implement
                          “Actions Required” column.      the recommendations, targeted
                                                          completion date(s), the title of
                                                          official(s) responsible for
                                                          implementation, and
                                                          verification that FWS officials
                                                          reviewed and approved of
                                                          actions taken or planned by the
                                                          State. We will refer
                                                          recommendations not resolved
                                                          and/or implemented at the end
                                                          of 90 days (after December 21,
                                                          2009) to the Assistant
                                                          Secretary for Policy,
                                                          Management and Budget for
                                                          resolution and/or tracking of
                                                          implementation.




                                     15
                                                 


                      Report Fraud, Waste, Abuse,  
                         and Mismanagement
                                                   
                            Fraud,
                                    waste and abuse in government
                            concern everyone: Office
                                                         of Inspector
                            General staff, Departmental employees,
                            and the general public. We actively
                            solicit allegations of any inefficient and
                            wasteful  practices, fraud, and abuse
                            related to Departmental or Insular Area
                           
                            programs and operations. You can
                                                                     
                            report allegations to  us in several ways.
                                                 
                                                     
                                                 
                                                 
                 By Mail:           U.S. Department of the Interior  
                                    Office of Inspector General  
                                    Mail Stop 4428 MIB  
                                    1849 C  Street, NW  
                                    Washington, D.C. 20240  
                   
                 By Phone :         24‐Hour Toll Free                    800‐ 424‐5081 
                                    Washington Metro Area                703‐ 487‐5435 
                   
                 By Fax:            703‐487‐5402
                   
                 By Internet:       www. doioig.gov/hotline
              
                                                                                           
